BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Brief Amicus Curiae of American Target
Advertising, Inc. et al. in Support of Petitioner in 20103, Stephen E. Stockman v. United States of America,
were sent via Next Day Service to the U.S. Supreme
Court, and 3 copies were sent via Next Day Service
and e-mail to the following parties listed below, this
12th day of August, 2020:
Lawrence J. Joseph
Law Office of Lawrence J. Joseph
1250 Connecticut Avenue, NW
Suite 700-lA
Washington, DC 20036
(202) 355-9452
ljoseph@larryjoseph.com
Counsel for Petitioner
Jeffrey Wall
Acting Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Mark J. Fitzgibbons
Counsel of Record
American Target Advertising, Inc.
9625 Surveyor Ct. #400
Manassas, VA 20110
(703) 392 7676
mfitzgib bons@americantarget.com

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 12, 2020.

Donna J. W
Becker Gallagh: i ; ;al Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

{La /}'Arv/ } I CPdO

ck~IJ. ~

Notary Public
[seal]

V

